         i
     ,
    ,(
!




                                                                     us. OFFICE OF PERSONNEL MANAGEMENT
                                                                                 OFFICE OF THE INSPECTOR GENERAL
                                                                                                  OFFICE OF AUDITS




                                                  Final Audit Report


             Subject:


             -AUDIT OF TIIE.INFQRMATION TECHNOLOGY

                        SECURITY CONTROLS OF THE

               U.S. OFFICE ()FPE;Rs()NN~LMANAGEMENT'S

                      ENTERPRISE IIUMANRESOURCES

                    --INTEGRATION DATA WAREHOUSE

                                 FY 2009





                                                          Date:                 _June 1, 2QQ9




                                                                           --CAUTION--
             Tlsblllldil reporthu b~tll lfi'itribllttd III F~okrlll liffidll, wh" ueniIWP"ibk f{lr 'k( a,JllIini.!lutjQlIl'If the IU\liNd prl/traDI_ TJt;s auait
             tcptirl1'lll)' to8laill pr(ll'rittlry dit311'hkb i5 prottued by Fe-<leul bw (1$ U.S.C.l9fl5-); lhtrd,Jrc. while this olldit npMi i! n'IHable
             Indet llir FrerdOfq of Illformal;M Aft, UlltiO" Dred5 h:l be nu't;i,e\l htfort nltuicg llltnpott 10 f,ht general (lablie.
                             UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                               Washington. DC 20415



   Ollk.t. (If lhf
Inspr£lOl (;'-'l\c~'d


                                               Audit Report


                                U.S. OFFICE OF PERSONNEL MANAGEMENT

                           AUDIT OF THE INFORMATION TECHNOLOGY SECURITY

                        CONTROLS m-THE U.S. OFFICE a.' PERSONNEL MANAGEMENT'S

                              ENTERPRISE HUMAN RESOURCES INTEGRATION

                                           DATA WAREHOUSE

                                                FY2009


                                              WASHINGTON, D.C.




                                      Report No. 4A-HR-OO-09-033


                                      Date:          .June   1   ,   2009




                                                                       Michael R. Esser
                                                                       Assistant Inspector General
                                                                         for Audits



          "'W"_"l""_'·;~v
                              UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                Washington, DC 20415

  Office of the
IlISpectur GllneraJ

                                          Executive Summary

                                U.S. OFFICE OF. PERSONNEL MANAGEMENT


                         AUDIT OF THE INFORMATION TECHNOLOGY SECURITY

                      CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S

                            ENTERPRISE HUMAN RESOURCES INTEGRAnON

                                         DATA WAREHOUSE

                                               FY 2009


                                              WASHINGTON, D.C.



                                      Report No. 4A-HR-OO-09-033


                                      Date:           June 1, 2009

        This final audit repOJ1 discusses the results of our review afthe information technology security
        controls of the Enterprise Huma.n Resources Integration Data Warehouse (EHRIDW) System.
        OUf conclusions are detailed in the "Results" section of this report.

        The results of our audit are summarized below:

        •	 A self-assessment was not required for EHRlDW in fiscal year (fY) 2008. The Office of the
           Inspector General (OIG) will verify that a current self-assessment of National Institute of
           Standards and Technology (NIST) Special Publication 800-53 controls is conducted for this
           system as part of the FY 2009 general Federal Information Security Management Act audit
              process.
        •	 A risk assessment was performed for EHRlDW that encompasses the nine primary steps
           outlined in NIST guidance.
        •	 The EHRIDW information system security plan was prepared in accordance with the fonnat
           and methodology outlined in NIST guidance.
        •	 An independent system security test and evaluation was conducted for EHRlDW.
        •	 EHRIDW was certified and accredited in FY 2009 in accordance with NIST guidance.




         WW .... OIl"'·GO~	                                                                    ...ww.usojobs.go.
•	 The EHRIDW contingency plan is routinely maintained and tested in accordance with NIST
   Guidance.
•	 An impact analysis based on the Federal Information Processing Standards Publication 199
   was completed for EHRIDW ill accordance with NIST guidance. The OlG agreed with the
   "high" classification of the system.
•	 One of the 13 security controls tested by the OIG was not implemented for EHRIDW.
•	 The 2009 second quarter Plan of Action and Milestones for EHRIDW appeared to be
   properly maintained in accordance with Office ofPersormel Management policy and
   guidance from the U.S. Office of Management and Budget.




                                             11
                                           Contents


Executive Summary                                                                         .i

Introduction                                                                                  I

Background                                                                                    I

Objectives                                                                                    1

Scope and Methodology                                                                         2

Compliance with Laws and Regulations                                                          3

Results                                                                                       4

    1. Self-Assessment...                                                                 .4

    II. Risk Assessment                                                                   .4

   III. Information System Security Plan                                                  .4

   IV. Independent Security Test and Evaluation                                               5

    V. Certification and Accreditation                                                    6

   VI. Contingency Planning                                                               6

  VII. Federal Information Processing Standards Publication 199 Analysis                  6

 VIII. NIST SP 800-53 Evaluation                                                          7

   IX. Plan of Action and Milestones Process                                                  8

Major Contributors to This Report                                                        10



Appendix: Human Resources Line of Business' April 10,2009 response to the OIG's draft audit
          report, issued March 26, 2009.
                                         Introduction

On December 17,2002, President Bush signed into law the E-Government Act (p.L. 107-347)
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to tlle Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we evaluated the information technology
(IT) security controls related to the Office of Personnel Management's (OPM) Enterprise Human
Resources Integration Data Warehouse (EHRIDW).

                                         Background
EHRIDW is one of OPM's 4 I critical IT systems. As sueh, FISMA requires that the Offiee of
the Inspector General (OIG) perform an audit of IT seeurity controls of this system, as well as all
of the agency's systems on a rotating basis.

The Human Resources Line of Business (HRLOB) has been designated with ownership of
EHRIDW. EHRIDW is a repository for electronic personnel data of Federal employees and
supports several minor applications that are used for analytical purposes by human resources
specialists throughout the government.

Although the EHRIDW application is owned and administered by OPM's HRLOB, the
infrastructure supporting EHRIDW's production environment is owned and maintained by the
Department of the Interior's (DOl) National Business Center (NBC). The production
environment is housed at the NBC facility in Ashburn, Virginia, and the development
environment is housed at the NBC facility in Denver, Colorado. The technical infrastructure in
place at both NBC facilities has been certified and accredited by DO I.

This was our first audit of the seeurity controls surrounding EHRIDW. We discussed the results
of our audit with HRLOB representatives at an exit conference.

                                          Objectives
Our overall objective was to perform an evaluation of security control~ for EHRIDW to ensure
that HRLOB officials have implemented IT security policies and procedures in accordance with
standards established by OPM's Center for Infonnation Services (CIS).

These policies and procedures are designed to assist program officc officials in developing and
documenting IT security practices that are in substantial compliance with FISMA, as well as
OMB regulations and the National Institute of Standards and Teclmology (NIST) guidance.

OPM's IT security policies and procedures require managers of all major and sensitive systems
to complete a series of steps to (I) certify that their system's infonnation is adequately protected
and    authorize the system for operations. The overall audit objective was accomplished by


                                                  I

reviewing the degree to which a variety of these security program steps have been implemcntcd
for EHRIDW, including:

•	   Annual Self Assessments;
•	   Risk and Vulnerability Assessments;
•	   Information System Security Plans;
•	   Independent Security Test and Evaluation;
•	   Certification and Accreditation;
•	   Contingency Planning;
•	   Federal Information PI1,lcessing Standards Publication 199 (FIPS 199) Analysis;
•	   Evaluation ofNIST Special Publication (SP) 800-53 Security Controls; and
•	   Plan of Action and Milestones Process.

                                 Scope and Methodology
Our performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts ofHRLOB officials
responsible for EHRIDW, including IT security controls in place as of February 2009.

We considered the EHRIDW internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives ofOPM's HRLOB office and other
program officials with EHRIDW security responsibilities. We reviewed relevant OPM IT
policies and procedures, Federal laws, OMB policies and guidance, and NIST guidance. As
apPropriate, we conducted compliance tests to determine the extent to which established controls
and procedures are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of
EHRIDW are located in the "Results" section ofthis report. Since our audit would not
necessarily disclose all significant matters in the internal control structure, we do not express an
opinion on the EHRIDW system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•	 aPM IT Security Policy;
•	 OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•	 E-Government Act of 2002 (P.1. 107-347), Title III, Federal Information Security
   Management Act of2002;
•	 NIST SP 80G-12, An Introduction to Computer Security;
•	 NIST SP 800- I8 Revision I, Guide for Developing Security Plans for Federal Information
   Systems;

                                                  2
•	 NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•	 NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•	 NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
   Information Systems;
•	 NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
   Systems;
•	 NIST SP 800-60 Volume II, Guide for Mapping Types ofInformation and Information
   Systems to Security Categories;
•	 Federal Information Processing Standard (FIPS) 199, Standards for Security Categorization
   of Federal Information and Information Systems; and
•	 Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from January through
March 2009, in OPM's Washington, D.C. office.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether HRLOB's management of
EHRIDW is consistent with applicable standards. Nothing carne to the OIG's attention during
this review to indicate that HRLOB is in violation of relevant laws and regulations.




                                               3

                                                Results
     This section details the results of our audit ofEHRIDW.

I.        Self-Assessment
          FISMA requires that IT security controls of each major application owned by a Federal
          agency be tested on an annual basis. In September 2008, an independent contractor tested
          the degree to which the management, operational, and technical controls outlined in NIST
          SP 800-53 have been implemented for EHRIDW (see section IV, below). Therefore, an
          internal self-assessment of these controls was not required in fiscal year (FY) 2008.

          The OIG will verify that a self-assessment ofNIST SP 800-53 controls is conducted for
          this system during FY 2009 as part of the general FISMA audit process.

II.       Risk Assessment

          An effective risk management process is an important component of a successful IT
          security program. NIST defines risk management as "the process of identifying risk,
          assessing risk, and taking steps to reduce risk to an acceptable level." NIST SP 800-30,
          Risk Management Guide for Information Technology Systems, offers a systematic
          approach for conducting risk assessments that includes the following nine steps:
           •   System Characterization;
           •   Threat Identification;
           •   Vulnerability Identification;
           •   Control Analysis;
           •   Likelihood Determination;
         •.•   Impact Analysis;
           •   Risk Determination;
           •   Control Recommendations; and
           •   Results Documentation.

          A risk assessment was performed for EHRIDW by a contracted vendor in November 2008
          that encompassed each of the elements outlined above.

          In addition, a privacy impact assessment (PIA) was completed and signed for EHRIDW in
          November 2008. A PIA is used to ensure no collection, storage, access, use, or
          dissemination of personally identifiable information occurs that is not needed or permitted.

III.      Information System Security Plan
          The completion of an information system security plan (ISSP) is a requirement of OMB
          Circular A-130 Appendix III, Security of Federal Automated Information Resources. The



                                                     4

      EHRIDW ISSP was developed in accordance with NIST SP 800-18, Guide for Developing
      Security Plans for Federal Infonnation Systems.

      The lSSP for EHRIDW was prepared in accordance with the fonnat and methodology
      outlined in NIST SP 800-18, and contained all major elements suggested by the guidance.
      The EHRIDW ISSP was completed by a contracted vendor, and was finalized in November
      2008.

IV.   Independent Security Test and Evaluation
      A security test and evaluation (ST&E) was completed for the EHRIDW during September.
      2008 as part the system's FY 2009 certification and accreditation (C&A) process. The
      ST&E was conducted by Carson Associates, a company independent of OPM and the DOI
      NBC that hosts EHRIDW. The OIG verified that the test included a review of the
      appropriate management, operational, and technical controls required for a system with a
      "high" security eategorization according to NIST SP 800-53 Revision 2, Recommended
      Security Controls for Federal Infonnation Systems.

      Several NIST SP 800-53 controls were identified by Carson Associates as not applicable to
      the EHRIDW certification and accreditation. Carson Associates stated that these controls
      related to the hardware infrastructure maintained by the NBC, and therefore referred to the
      NBC C&A package for an assessment ofthese controls. 'The OIG evaluated the
      appropriateness of deferring these controls to the NBC, and did not disagree with Carson
      Associate's assessment.

      In addition, several NIST SP 800-53 controls are related to agency-level policy and
      procedure requirements. When reviewing these eontrols, Carson Associates referred to the
      C&A package for the Electronic Official Personnel Folder (eOPF) application, which in
      turn referred to the relevant OPM IT security policy or procedure posted on OPM's internal
      web site. However, several of the policies referenced in the eOPF ST&E are extremely
      outdated, and the OIG believes that this represents a security weakness to any IT system
      that is subject to the guidance outlined in these documents. The maintenance of these
      policies and procedures is the responsibility ofOPM's CIS. The OIG recommended in
      its FY 2008 FISMA audit report that these documents be updated, and therefore will not
      include this weakness as an audit finding in this report. However, HRLQB should evaluate
      the impact that any outdated information contained in these policies has on the security
      controls ofEHRIDW.

      The remaining NIST SP 800-53 controls were within the scope of the ST&E and Carson
      Associates determined whether each control was satisfied or not satisfied. Carson
      Associates presented a copy of the evaluation results to HRLOB, and helped the program
      office incorporate the identified weaknesses into the EHRIDW risk assessment.




                                                5

V.    Certification and Accreditation
      NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
      Infonnation Systems, states that certification is a comprehensive assessment that attests
      that a system's security controls are meeting the security requirements of that system, and
      accreditation is the official management decision to authorize operation of an infonnation
      system and accept its risks. EHRIDW was certified and accredited on November 20, 2008,
      in accordance with NIST SP 800-37 requirements.

      OPM's CertifYing Official and IT security officer evaluated the security-related
      documentation that HRLOB provided in the certification package. The CertifYing Official
      stated that the requirements for certification have been satisfied and suggested that the
      program office detennine whether it is appropriate to fonnally accept certain risks
      identified during th.e C&A process.

      The certification package was also reviewed by the Director ofHRLOB, who was acting as
      the system's Authorizing Official. The Authorizing Official reviewed the security controls
      that have been implemented for the system, weighed the remaining residual risks against
      the operational requirements, and granted a three year Authorization to Operate to the
      EHRIDW major application.

VI.   Contingency Planning

      NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
      contingency planning, execution, and testing are essential to mitigate the risk of system and
      service unavailability. The OPM IT security policy requires that OPM general support
      systems and major applications have viable and logical disaster recovery and contingency
      plans, and that these plans are annually reviewed, tested, and updated.

      The EHRIDW is hosted at the DOl NBC. In the event of a disaster, the NBC will perfonn
      all tasks associated with restoring communications, network infrastructure, servers, and
      applications. The OPM/HRLOB Operations Team has been assigned the responsibility to
      provide oversight, guidance, application-specific configurations, and application
      functionality testing during the disaster recovery process.

      The contingency plan developed for EHRIDW has been tested and reviewed in accordance
      with NIST SP 800-34 by both the NBC and HRLOB. The plan addresses all of the key
      elements outlined in the NIST guidance.

VII. Federal Information Processing Standards Publication 199 Analysis

      FIPS 199, Standards for Seeurity Categorization of Federal Infonnation and Infonnation
      Systems, requires the development of standards for categorizing infonnation and
      infonnation systems to ensure that the appropriate levels of infonnation security controls
      are implemented. NIST SP 800-60 Volume II, Guide for Mapping Types oflnfonnation
      and Infonnation Systems to Security Categories, provides additional guidance for

                                                 6
     understanding the security objectives and impact levels identified in FIPS 199 by defining
     infomlation types and deterrnilJing each category's impact.

     A security categorization and analysis was performed for EHRIDW that was based on both
     BPS 199 and NIST SP 800-60 Volume II. The FIPS 199 analysi, considered the potential
     level of impact (low, moderate, high) that would result from a loss of confidentiality.
     integrity, or availability of each of the information types. The DIG detemlined that this
     evaluation was adequate and agrees with the overall security categorization of high for
     EHRIDW.

VIII. NIST SP 800-53 Evaluation

     N1ST SP 800-53 provides guidance for implemenling a variety of security controli;: for
     jnfonnation systems supporting the Federal government. These controls arc organized into
     thrce classes -(management, operational, and tedmical). The OIG tested a subset of these
     controls for EHRIOW as part of this alloH, including:

     •   AC·2: Account Management                   •   CM-4: Monitoring Configuration Changes
     •   AC-7: Unsuccessful Login Attempts          •   lA-5: Authenticator Management
     •   AC-I ]: Sessioll Lock                      •   IR·2: Jncident Response Training
     •   AC·13: Supervision and Review              •   LR-5: Incident Monitoring
     •   AU-2: Auditable Events                     •   IR-6: Incident Reporting
     •   AU--6: Audit Monitoring                    •   RA·5: Vulnerability Semming
     •   CM-3: Configuration Cbange Control

     These controls were evaluated by interviewing individuals with EHRIDW security
     responsibilities, reviewing documentation and system screenshots provided by HRLOB,
     and tests conducled on the system directly by the DIG.

     Although the majority ofNJST SP 800-53 controls appeared to be implemented for
     EHR rnw, several tested controls related to system auditing                     and
     incident response                   had not been implemented for this system. These
     control weaknesses were previously identified by HRLOB, and were appropriately
     included in the EHRIDW plan of action and milestones (POA&M). However, these
     POA&M items are over 120 days old and should be considered a high priority for HRLOR

     .The 01G detennined that one control,_ has Dot been implemented and is not included
      on the EI-lR1DW POA&M. In prior years, HRLOB periodically evalualed lhe
      appropriateness of active EHRJDW user accounts

                                . However, this process no longer appears to be in place, as it has
     been over one year since the last review of active user accounts. Failure to routinely audit
     user accounts for appropriateness increases the risk that unauthorized individuals can
     access sensitive data on the system.



                                                7
      Recommendation I
      We recommend that HRLOB routinely audit active EHRIDW user accounts for
      appropriateness.

      HRLOB Response:
      "The Program Office concurs with this recommendation. ..• In response to the OIO's
      recommendation, the Program Office will ensure that it conducts reviews ofactive user
      accounts every six months as suggested in the Risk Assessment and documented in the
      POA&M so that the risk ofunautllorized access to sensitive system data is reduced. The
      Program Office expects to have tllis in place by August 1,2009."

IX.   Plan of Action and Milestones Process
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
      monitoring the progress of corrective efforts for IT security weaknesses. OPM has
      implemented an agency-wide POA&M process to help track known IT security weaknesses
      associated with the agency's infonnation systems.

      HRLOB submitted a current POA&M to OPM's CIS in November 2008. The OlG
      evaluated the following aspects of this POA&M:

         Prioritization of Weaknesses

         HRLOB uses the POA&M template provided by OPM's CIS to track security control
         weaknesses of EHRIDW. This template facilitates the prioritization of POA&M
         weaknesses, and HRLOB appears to be prioritizing its weaknesses per OPM policy and
         FISMA requirements.

         Proof of Closure

         The EHRIDW POA&M indicates that several security weaknesses were recently
         corrected and the POA&M item was closed. The OlG evaluated the "proof of closure"
         documentation that was submitted to OPM's CIS/CIO at the time the POA&M item was
         closed.

         We requested proof of closure evidence for a sample of six POA&M items closed
         between December 31, 2007 and January 14,2009. Of the six items requested, the OlG
         was only provided adequate proof of closure documentation for four of the POA&M
         items. Prior to June 2008, OPM's CIS/CIO did not have a well defined process for
         documenting POA&M proof of closure; this weakness was documented in the OIG's
         FY 2008 FISMA report. The four items that were missing were closed before June
         2008, and the two that were provided were closed after June 2008. The OIG believes
         that this indicates that controls related to documenting proof of closure are currently in
         place for EHRlDW. As part of the FY 2009 general FISMA audit, OlG will verify that
         HRLOB continues to submit proof of closure documentation to CIS/CIO.


                                                8
   Including All Identified Weaknesses in POA&M

   As mentioned in section IV, above, Carson Associates conducted an independent ST&E
   of the NIST SP 800-53 controls in place for EHRlDW. Carson identified at least 40
   controls that were not fully implemented on the EHRlDW. A copy of the test results
   werc presented to the HRLOB program office, and the results were incorporated into
   the EHRlDW risk assessment.

   However, none of the weaknesses identified by Carson were included on the FY 2009
   first quarter EHRlDW POA&M (dated November 1, 2008). This was brought to the
   attention ofHRLOB during the fieldwork phase of this audit. In February 2009,
   HRLOB submitted an updated copy ofthe EHRlDW POA&M to the OIG, and we
   verified that the security weaknesses identified during the ST&E were now included in
   thePOA&M.

   .The OIG is not aware of any other recent security assessments ofEHRlDW that could
    lead to the identification of potential POA&M items.                           .

Nothing came to our attention during this evaluation to indicate that there are any current
weaknesses in HRLOB's management ofPOA&Ms.




                                           9

                                Major Contributors to This Report


Tbis audit report was prepared by the U.S. Office ofPersonllei Management, Office of Inspector
General, Infonnation Systems Audits Group. The following individuals participated in the audlt
and the preparation of this report:

•                  , Group Chief

•                       I   Auditor-in~Charge

•                   >   lnfonnation Technology Auditor




    ..   '.




                                                10

                                                   Appendix

                                UNITBD STATES OFFlCE .OF PERSONNEL MAN:AGEMENT

                                                  Wfl3hU!gtOO; DC ~lS



()f'5Q,of~.II~.
_H.......   ~

  U.olB...a-

     MEMORANDUM F O R _
                                     ~ystemsAudits Group

     FROM:
                                     Program Director. Enterprise man'R;;;;\ut;::;
                                     Human .Resources Line of Business

      S~bject	                       Program Office Response.o O!G Repon Number 4A·HR-OO-09.Q33,
                                     "Audit of the Infonnation Technology Sc;<:urity Control~ of the-U.S.
                                     Office of PCJSOnnel. Management's Enterprise Human Resoure6s
                                     Integration Data Warehouse"

      Thank you for the opportunity to ~mment on the Office of the l~tor General (010) Draft
      Repo.rf. "Auc:lit oEthe Information Technology Se.curHy Controls of tile U.S.. Office ofP~nl')_el
      Management's Enterprise Human"Rcsomces Integration Data W~ousc ..•

      The Human Resomees Line of BusIness (mU.OB) Enterprise Human Resourees.lntegnUion _
      (EHRI) Program Office has revjcwed the repo,rt and ag~ with the findIngs, conclusions,. and
      re(,"QmmcmJatiom, prescnred. TIle Program Office is committed to resolving all ,outJitanding IT
      security-related is.sues in a timely manner. Specifically, the Program Office will take the
      foUowing,actiollS 10 address the following 010 recommC'.ndation:

      Recommendation I: The DIG recommends ttwt HRLOB routinely audit active EBRl Data
      War~housc, (DW) user accounts for approprjateness.

     11le Progrnm Office cOncurs with tius recommendation. TIle Nationollnstitute ofSta.ndards and
     TcchnQlogy (N1Sn Specinl Publication (SP) 800-53 security control.AC~2 that corresponds to
     this recommendation was identified as "partially Satisfied" during security controls testing on
     August 28, 2008. Consequently, the EHRI DW Risk Assessment, d!lted November 19,2008,
      identified a medium-risk vulnernbility related to this control, and the vulnerability was added to
     the EHRI DW Plan of Action and Milestones (pOA&M) as Item MJ7. To address this
     \'ulnerabiiity, the Risk Assessment recoounendation states that EHRI should mak~ use of an
     automated process to review EHRl DW user accounts and fully documeDt how it reviews EHRl
     -OW accounts every six months. This documentation should include details on bow acCess
     authorization forms are kept up-to-date and how nuthorization forms are kept in sync: with nctmil
     system righrs and privileges. In response to the DIG's reconmlendalion, tbe Pto&J"UD Office will
     ensure that it conducts reviews of active \.ISer accoWlts every six months as suggested in '-he Risk
     AssessmcnI and documented in the POA&M so that the risk ofunaulhorized access to sensitive
     SystCUI data is n::duced. The Program Office Ck-pects to have this in place by August 1.2009.




        ........10....' . . 

LEWIS F. PARKER                                                      2

ce:	 Janet L. Barnes
     Deputy Associate Director
     Center tor Information Services and Chief Information Officer


        Infonnation Technology Specialist
        Center for Information Serv"iceS

        David M. Cushing
        Deputy Chief Financial Officer


        Human Resources Line ofBusiti~




.' .,
